No. 20-836

In the Supreme Court of the United States
MARCUS BROADWAY, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 2,999 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on
April 7, 2021.

/s Jared McClain
Jared McClain
Counsel of Record
NEW CIVIL LIBERTIES ALLIANCE
1225 19th St., NW, Suite 450
Washington, DC 20036
(202) 869-5210
Jared.McClain@NCLA.Legal
April 7, 2021

